<html>
<title> - SUNSHINE IN THE COURTROOM ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                 SUNSHINE IN THE COURTROOM ACT OF 2013

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     COURTS, INTELLECTUAL PROPERTY,
                            AND THE INTERNET

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                H.R. 917

                               __________

                            DECEMBER 3, 2014

                               __________

                           Serial No. 113-121

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


         
         

      Available via the World Wide Web: http://judiciary.house.gov 
      
                              ------------
                              
      
                    U.S. Government Publishing Office
      
 91-546 PDF                WASHINGTON : 2015 
 __________________________________________________________________________________
      
      For sale by the Superintendent of Documents, U.S. Government Printing 
        Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
               DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                                Washington, DC 20402-0001

      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUUL LABRADOR, Idaho                JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

    Subcommittee on Courts, Intellectual Property, and the Internet

                 HOWARD COBLE, North Carolina, Chairman

                TOM MARINO, Pennsylvania, Vice-Chairman

F. JAMES SENSENBRENNER, Jr.,         JERROLD NADLER, New York
Wisconsin                            JOHN CONYERS, Jr., Michigan
LAMAR SMITH, Texas                   JUDY CHU, California
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
DARRELL E. ISSA, California          KAREN BASS, California
TED POE, Texas                       CEDRIC RICHMOND, Louisiana
JASON CHAFFETZ, Utah                 SUZAN DelBENE, Washington
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                ZOE LOFGREN, California
RON DeSANTIS, Florida                SHEILA JACKSON LEE, Texas
JASON T. SMITH, Missouri             STEVE COHEN, Tennessee
[Vacant]

                       Joe Keeley, Chief Counsel

                    Heather Sawyer, Minority Counsel
                            C O N T E N T S

                              ----------                              

                            DECEMBER 3, 2014

                                                                   Page

                                THE BILL

H.R. 917, the ``Sunshine in the Courtroom Act of 2013''..........     3

                           OPENING STATEMENTS

The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Courts, 
  Intellectual Property, and the Internet........................     1
The Honorable Ted Deutch, a Representative in Congress from the 
  State of Florida, and Member, Subcommittee on Courts, 
  Intellectual Property, and the Internet........................     9
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    10
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary, and Member, Subcommittee on Courts, Intellectual 
  Property, and the Internet.....................................    11

                               WITNESSES

The Honorable Steve King, a Representative in Congress from the 
  State of Iowa
  Oral Testimony.................................................    13
  Prepared Statement.............................................    16
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California
  Oral Testimony.................................................    18
  Prepared Statement.............................................    19
The Honorable Julie A. Robinson, Judge, United States District 
  Court for the District of Kansas, on behalf of the Judicial 
  Conference of the United States
  Oral Testimony.................................................    20
  Prepared Statement.............................................    23
Mickey H. Osterreicher, General Counsel, National Press 
  Photographers Association
  Oral Testimony.................................................    50
  Prepared Statement.............................................    52

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Tom Marino, a Representative 
  in Congress from the State of Pennsylvania, and Vice-Chairman, 
  Subcommittee on Courts, Intellectual Property, and the Internet    75

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from Thomas M. Susman, Director, Governmental Affairs 
  Office, the American Bar Association (ABA).....................   120


                 SUNSHINE IN THE COURTROOM ACT OF 2013

                              ----------                              


                      WEDNESDAY, DECEMBER 3, 2014

                        House of Representatives

            Subcommittee on Courts, Intellectual Property, 
                            and the Internet

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Tom 
Marino (Vice-Chairman of the Subcommittee) presiding.
    Present: Representatives Coble, Marino, Goodlatte, Chabot, 
Poe, Farenthold, Collins, DeSantis, Conyers, Deutch, DelBene, 
Jeffries, Cicilline, Lofgren, and Jackson Lee.
    Staff Present: (Majority) David Whitney, Counsel; David 
Lazar, Clerk; (Minority) Jason Everett, Counsel; Norberto 
Salinas, Counsel; and Susan Jensen, Counsel.
    Mr. Marino. The Subcommittee on Courts, Intellectual 
Property, and the Internet will come to order. Without 
objection, the Chair is authorized to declare recesses of the 
Subcommittee at any time. We welcome all of our guests today.
    Unfortunately, Representative and Chairman Howard Coble and 
the Ranking Member, Jerry Nadler, will not be able to make the 
meeting--or the hearing in the beginning. They may be here 
later on. And at the request of them, I stated that I would 
explain why they are not here.
    For the members of the public who are here today or may 
otherwise be observing our hearing, I am Representative Tom 
Marino from Pennsylvania, the Vice-Chairman of the Subcommittee 
on Courts, Intellectual Property, and the Internet. And I will 
be chairing today's legislative hearing. I will recognize 
myself and then Congressman Ted Deutch from Florida, who is 
sitting in for the Subcommittee Ranking Member, for initial 
opening statements. I will then recognize the chairman of the 
full Committee, Representative Bob Goodlatte, and the Ranking 
Member, Representative John Conyers, of the full Committee, to 
make their introductory remarks.
    With that explanation, today's legislative hearing is on 
H.R. 917, the ``Sunshine in the Courtroom Act of 2013.''
    The bill was introduced by our distinguished colleague, 
Representative Steve King in April of 2013 and includes three 
additional members of the Judiciary Committee, Representatives 
Chaffetz, Lofgren, and Deutch, as original cosponsors. 
Subsequent to the introduction, two additional Members of the 
House signed on in support. Representatives King and Lofgren 
are present with us this morning, and they will soon be 
recognized to testify on the reasons they believe the 
legislation should be enacted.
    In addition to Representatives King and Lofgren, we have 
two additional witnesses who will testify on a second panel. 
They are the Honorable Julie Robinson, United States Judge for 
the District of Kansas, who will appear on behalf of the 
Judicial Conference of the United States, and Mr. Mickey 
Osterreicher--did I pronounce that right? Thank you--the 
general counsel of the National Press Photographers 
Association, NPPA.
    The principal authority contained in H.R. 917 is in section 
2B, which provides, subject to certain exceptions, the 
presiding judge, which is defined in the bill, of each Federal 
appellate court and district or trial level court, is 
authorized to permit the photographing, electronic recording, 
broadcasting, or televising to the public of any court 
proceedings over which that judge presides. Provisions in H.R. 
917 would apply this authority to the Supreme Court of the 
United States, as well as United States Circuit Courts of 
Appeals and district courts. The purpose of H.R. 917, as with 
similar bills introduced in prior Congresses, is meant to 
address the longstanding practice of the Federal courts, which 
with few exceptions, prohibits the live electronic recording of 
media coverage or proceedings from inside the courtroom.
    In general, proponents for the legislation believe existing 
prohibitions are a hindrance on transparency, education, and 
general public awareness of our law and judicial processes due 
to limited access to the actual proceedings. As one of our 
witnesses will testify today, the ability to disseminate 
information via electronic coverage of courts proceedings is a 
critical component in affording the public the modern 
equivalent of attending and observing proceedings.
    In sum, the opponents think the potential harm outweighs 
the benefits. Chief among their concerns is the proposition 
that the legislation has the potential to impair substantially 
the fundamental right of citizens to a fair trial, while 
undermining court security and the safety of jurors, witnesses, 
and other trial participants, including judges. Beyond the 
general questions of whether cameras should be permitted in 
Federal court proceedings are a myriad of additional questions 
that include where and when they should be permitted, whether 
consent of the parties should be required, whether the courts 
should control the operation and dissemination of materials, 
and whether Congress would be required to provide additional 
funding and resources to the courts. Today's hearing presents 
an opportunity to discuss in detail the issues implicated by 
these fundamental questions.
    With that, I conclude my opening remarks, and recognize our 
acting Ranking Member, Congressman Deutch from Florida, who is 
a cosponsor of the bill that is the subject of today's hearing.
    [The bill, H.R. 917, follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                __________

    Mr. Deutch. Thank you, Mr. Chairman.
    And thanks to our colleagues for their leadership on this 
issue. Judicial Conference policy and the Federal Rules of 
Criminal Procedure prohibit the televising of Supreme Court and 
Federal court proceedings involving some of the most critical 
legal issues facing our Nation. These policies impose severe 
limitations on the public's ability to observe court 
proceedings interpreting laws that can impact the daily lives 
of every American. These restrictive broadcasting policies 
shroud the Supreme Court and Federal court proceedings in 
secrecy and can raise questions in the minds of the public on 
the administration of justice. Chief Justice Burger wrote of 
the importance of public access to courtrooms in Richmond 
Newspapers v. Virginia, writing that, ``A trial courtroom is 
also a public place where the people generally, and 
representatives of the media, have a right to be present and 
where their presence historically has been thought to enhance 
the integrity and quality of what takes place.''
    And while Richmond Newspapers addressed public access to 
criminal court proceedings, public access has been extended to 
civil trials as well. You can walk into any State or Federal 
courtroom in America and see rows of benches or seats to 
accommodate public audiences interested in watching the legal 
proceedings. The Supreme Court also has public seating 
available to accommodate the lucky few. Courtroom proceedings 
for audiences recognizes and accommodates our Nation's long 
tradition of public court watching. Public court watchers may 
not be as prevalent now as they were in the past, however, for 
cases on important legal issues, finding an available seat in 
the courtroom can be difficult, if not impossible. Indeed, most 
people now receive descriptions on important proceedings from 
press reports in various forms of the media outlets.
    And don't get me wrong, I appreciate the work that 
SCOTUSblog does, but the Supreme Court and Federal courts need 
to recognize and adapt to the changes to permit the next 
generation of court watchers access to proceedings on important 
legal issues. Such changes should include permitting television 
broadcasting.
    The Sunshine in the Courtroom Act would improve U.S. 
Supreme Court and the Federal Court transparency by increasing 
public accessibility to legal proceedings. Under the bill, the 
presiding judge, a majority of the judges participating on the 
panel, or the Chief Justice of the Supreme Court would have the 
discretion to permit the photography, the broadcasting, the 
televising of the proceedings.
    The bill also includes numerous protections for the parties 
involved that would permit the judge or judges to close the 
court proceedings to being televised. As added protections, the 
bill would permit the judge or judges to consider if televising 
the proceedings would violate the due process rights of a party 
involved in the proceedings. And in addition, a witness in a 
court proceeding could request to have their face and voice 
disguised to protect their identity. Moreover, the bill would 
prevent media coverage of the jurors involved in a judicial 
proceeding and juror selection. The presiding judge of a court 
also would have the discretion to create rules and disciplinary 
measures that could be enforced against members of the media in 
the interests of preserving justice and fairness.
    The Supreme Court and our Federal courts hear and consider 
some of the most important issues facing our country. These 
proceedings, and the decisions issued from the proceedings by 
the Supreme Court and Federal courts, impact every facet of the 
lives of Americans. As just one of many examples, a three-judge 
panel of the D.C. Court of Appeals recently heard oral 
arguments on the constitutional privacy issues involving the 
NSA's mass collection of phone data. The U.S. Supreme Court and 
the Federal courts also have heard and hear cases involving the 
Affordable Care Act, our Nation's immigration laws, 
interpretation of the Second Amendment, housing and foreclosure 
issues, political and campaign cases, and many other pressing 
issues that face our country. And yet very few people have an 
opportunity, and most people never have the chance, to observe 
the proceedings in person.
    Public access to critical cases in the Supreme Court or 
Federal courthouses is limited to the very few who can wait in 
line for hours and sometimes days or who can hire a person to 
stand in line for them.
    The limited public access to the Supreme Court and Federal 
court proceedings is inconsistent with the modern world of 
readily accessible media. Indeed, video recording devices are 
permitted in State supreme courts. It is time that this U.S. 
Supreme Court and Federal court practice is changed.
    I would like to thank again my colleagues, Congressman King 
and Congresswoman Lofgren, for their work and strong leadership 
on this critical issue. Broadcasting of the Supreme Court and 
Federal court proceedings will ensure that the public has full 
access to the oral arguments on important legal issues and 
will, most importantly, help to ensure that justice is carried 
out for all to see.
    Thank you, and I yield back.
    Mr. Marino. Thank you, Congressman Deutch.
    I would now like to recognize the full Committee Chairman, 
the distinguished gentleman from Virginia, Congressman Bob 
Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Chairman, today's legislative hearing on H.R. 917, the 
``Sunshine in the Courtroom Act of 2013,'' is one that raises 
substantial and important questions that have been the focus of 
this Committee's attention before. Indeed, the questions 
surrounding whether and under what circumstances Federal court 
proceedings should be televised or otherwise made available via 
electronic medium is not novel but ones Congress and the 
Federal Judiciary have considered in various forms for many 
years. In fact, legislation to authorize broadcast or 
television coverage of Federal court proceedings has been 
introduced by Members, typically with bipartisan support, as is 
true in the present case, in every Congress dating back to at 
least the 105th.
    Most recently, the Committee reported a version of this 
legislation in 2007, when a bill sponsored by our colleague 
Representative Steve Chabot and former Representative William 
Delahunt was reported favorably. H.R. 917, the ``Sunshine in 
the Courtroom Act of 2013'' and the 2007 bill are substantially 
similar. The bill's sponsor, Representative Steve King, 
succinctly stated in his written testimony his motivation and 
belief in introducing this bill that Congress has both the 
constitutional authority to act and the duty to use that 
authority to expand public access to our courts.
    Proponents of the bill believe that the values of 
transparency, accountability, and education will only be 
enhanced by expanded public access to our Federal courts. 
However, the principal opponents of cameras in the courtroom 
legislation are the Supreme Court of the United States and the 
Judicial Conference of the United States, the latter of which 
functions as the policymaking body for the lower Federal 
courts. Each would be impacted by the enactment of H.R. 917, 
which authorizes the presiding judge of a court to allow 
cameras and recording devices to be operated in Federal court 
proceedings, subject to certain exceptions and qualifications.
    I appreciate Judge Robinson's appearance today, and I 
believe it is vitally important that the Judicial Conference 
and the Supreme Court avail themselves of each opportunity to 
participate in the Committee's consideration of legislation 
that impacts our justice system. This is particularly true in 
matters that relate to the administration and operation of the 
Federal Judiciary.
    Perhaps spurred by this Committee's action in 2007, the 
Judicial Conference authorized a 3-year pilot project in 2010 
to evaluate the effects of cameras being used in district 
courts and related matters. Fourteen courts volunteered for the 
project, which is ongoing, limited to civil proceedings, and 
scheduled to conclude in July 2015. Following the pilot's 
conclusion, the Federal Judicial Center will prepare a report 
and provide it to the Judicial Conference's Committee on Court 
Administration and Case Management. It is then expected that 
CACM will provide a report to the Judicial Conference regarding 
the possible future use of cameras in district courts. 
Notwithstanding the ongoing nature of the pilot, the conference 
currently maintains the view that this legislation will have 
the potential to impair substantially the fundamental right of 
citizens to a fair trial, while undermining court security and 
the safety of jurors, witnesses, and other trial participants, 
including judges. It is clear the views of proponents and 
opponents are strongly and sincerely held and that a discussion 
of the relative merits will benefit our consideration. I 
particularly want to thank Mr. King and Mr. Chabot for their 
work on the Republican side on this issue, and Congresswoman 
Lofgren and Congressman Deutch for their efforts on the 
Democratic side. This is truly a bipartisan effort, and 
deserves careful consideration by the Committee.
    With that, I yield back, Mr. Chairman.
    Mr. Marino. Thank you, Mr. Chairman.
    I would now like to recognize the full Committee Ranking 
Member, the distinguished gentleman from Michigan, Congressman 
Conyers.
    Mr. Conyers. Thank you very much, Mr. Chairman.
    I wanted to begin by mentioning that our colleague from New 
York, Mr. Nadler, wanted to be here today, but he is at the 
Supreme Court, where there is oral argument going on in a very 
important case. And I wanted his absence to be noted, and that 
he is very concerned about the proceedings that are taking 
place here in the Judiciary Committee.
    The Sunshine in the Courtroom Act of course would authorize 
photography, electronic recording, broadcasting, or televising 
of any court proceeding held in the Federal district court, and 
in the Circuit Court of Appeals, and even the Supreme Court of 
the United States, subject to some exceptions. As many of you 
may recall, the Committee on the Judiciary previously 
considered legislation substantially identical to H.R. 917. And 
although I voted in favor of this prior legislation, I still 
have, nevertheless, several concerns. Most importantly, I want 
the proponents of H.R. 917 to address the Judicial Conference's 
observation that this measure could potentially impair the 
fundamental right of a citizen to a fair and impartial trial.
    For example, Justice Elena Kagan earlier this year said 
that televised coverage of Federal court proceedings would or 
might encourage participants to play to the camera. In fact, 
the Supreme Court in Estes v. Texas, a case involving a State 
criminal trial that was televised, observed that the chief 
function of our judicial machinery is to ascertain the truth. 
The use of television, however, cannot be said to contribute 
materially to this objective. Rather, its use amounts to the 
injection of an irrelevant factor into the court proceedings.
    In addition, experience teaches that there are numerous 
situations in which it might cause actual unfairness, some so 
subtle as to defy detection by the accused or controlled by the 
judge. Accordingly, I want the proponents of H.R. 917 to 
explain how the bill does not undermine a citizen's right to 
due process and a fair trial.
    Secondly, we should ensure that the bill adequately 
protects the privacy rights of participants in Federal judicial 
proceedings. Clearly, we must be cognizant of the fact that 
electronic media coverage presents the prospect of public 
disclosure of personal information that may have a material 
effect on the individual's willingness to testify or place an 
individual at risk of being a target for retribution or 
intimidation. I realize the bill authorizes a witness' image 
and voice to be obscured under certain circumstances. But is 
this sufficient to protect the witness' privacy?
    And finally, we must be mindful of the need to ensure the 
safety and security of our judges, our law enforcement 
officers, and other participants in the judicial process. Some 
believe that cameras in the courtroom could heighten the level 
of, and potential threats to, Federal judges, particularly 
those proceedings involving highly controversial matters. The 
Judicial Conference is currently in the midst of a pilot 
program expected to conclude next July, that, among other 
things, is examining the impact of electronic media on the 
safety and security of the courtroom. Hopefully, that test 
program will provide some guidance on this issue so that court 
security is not undermined. That concludes my statement.
    I yield back the balance of my time.
    Mr. Marino. Thank you, Congressman Conyers.
    Without objection, the Members' opening statements will be 
made part of the record.
    We have two very distinguished panels of witnesses today. 
Each of the witnesses' written statements will be entered into 
the record in its entirety. I ask that each witness summarize 
his or her testimony in 5 minutes or less. To help you stay 
within the timing, there is a light on your table. When the 
light switches from green to yellow, you have 1 minute to 
conclude your testimony. When the light turns red, it signals 
the witness' 5 minutes have expired.
    Our first witness today is the Honorable Steve King, the 
Member of Congress who represents the Fourth District of Iowa. 
Representative King serves as Chairman of the Department 
Operations, Oversight, and Nutrition Subcommittee on the House 
Agricultural Committee. He also serves on the Small Business 
Committee, and here on the Judiciary Committee. Prior to being 
elected to Congress in 2002, Representative King served in the 
Iowa State Senate for 6 years as Chairman of the State 
Government Committee and Vice-Chairman of the Oversight Budget 
Subcommittee. Representative King studied math and science at 
Northwest Missouri State University.
    Welcome, Mr. King.
    Our second witness is the Honorable Zoe Lofgren, the Member 
of Congress who represents the 19th District of California. She 
serves as Ranking Member on the Oversight Subcommittee for the 
House Administration Committee, and is a member of the Science, 
Space, and Technology Committee. She also serves as Ranking 
Member of the Immigration and Policy and Enforcement 
Subcommittee and is a member of this Subcommittee, which has 
oversight over Federal courts, intellectual property, and the 
Internet on the Judiciary Committee. Prior to being elected to 
Congress in 1995, Representative Lofgren served on the Santa 
Clara County Board of Supervisors for 14 years. She earned her 
J.D. From the University of Santa Clara School of Law, and her 
B.A. From Stanford University.
    Welcome.
    We will start with you, Representative King.

  TESTIMONY OF THE HONORABLE STEVE KING, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. King. Thank you, Mr. Chairman. Mr. Chairman, I thank 
you and our Ranking Member, both the full and the Subcommittee, 
for the opportunity to bring this bill, H.R. 917, the 
``Sunshine in the Courtroom Act of 2013,'' before this hearing 
today. I would ask consent to introduce my written testimony 
into the record and then to testify orally in addition.
    Mr. Marino. Without objection.
    Mr. King. Thank you, Mr. Chairman. To work our way down 
through this bill, and I also want to thank my colleague, Ms. 
Lofgren, and a good number of others for their bipartisan 
cooperation on this bill that is before us. H.R. 917, the 
``Sunshine in the Courtroom Act of 2013,'' expands public 
access to the courts. And when we think about what public 
access means, it is a different definition for us in this 
modern era in the 21st Century than it was back when the 
Constitution was ratified, in that we had small courtrooms, a 
few people traveled, there wasn't much access just because of 
logistical difficulties. Today, we turn on the Super Bowl, and 
millions of people watch it on television. That is what we 
consider access. And yet something like Bush v. Gore can be 
decided in the United States Supreme Court with a relative 
handful of people having only exclusive access to get in to 
hear a case like that. It also was true with Obamacare, the 
Affordable Care Act. It was a significant maneuver for even a 
member of this Judiciary Committee, meaning myself, to be able 
to get into the courtroom to hear the oral arguments before the 
court.
    I think that the court needs to have the opportunity to 
make the decision to change that. We don't direct the courts to 
open up the courtroom to the cameras, but we provide the 
regulations that allow the courts to do so under their judgment 
and their discretion. We protect the jurors from any kind of 
exposure. They cannot be exposed to the media coverage along 
that. And, again, we don't force the judges to open up their 
courtrooms. We just provide them the opportunity to do so.
    And there may be an argument about where this jurisdiction 
to provide this statutory authority to open up the courtrooms 
to cameras comes from. And I would point out that in Article I, 
Section 8, and in Article III, Section 1, the Congress 
establishes--it is established that the Congress establishes 
the courts. And in Article III, Section 2, it is clear that we 
write the regulations at least for the Supreme Court, and I 
might expand that definition in another venue. But we need to 
be expanding the public access and open up the machinery of 
government. When I hear--I remember during the Bush 
administration, I heard comments of the ``appointed 
President.'' Well, there is a bit of I will say suspicion about 
what went on in a courtroom that very few people had an 
opportunity to witness. And most of us, if we weren't in the 
courtroom, then we had to rely on the pundits' analysis or 
perhaps the legal analysis that informed the pundits' analysis 
of what the decision really was in the courtroom. It isn't an 
eye to eye objective view for hardly anybody in today's world, 
given the access we have at all other public functions that I 
can think of. So we expand public access and open up the 
machinery of government. I also would add that the Sixth 
Amendment demands that we have a right to a speedy and a public 
trial. And that takes us back to that definition of, what is 
public? So the Founders knew that opening the government to 
public served a dual purpose of holding our leaders 
accountable, and our appointed and elected officials and 
confirmed officials accountable, and it had a form of education 
as well.
    I would just take you back to an experience that frames 
this for me. And this was in a State district court. But I had 
a case, and the name of it was King v. Gustafson. And it was an 
issue where I was collecting on a bill. And we ended up before 
the district court with a judge, who, after the court hearing--
and I thought we had made our case absolutely irrefutably. We 
caught our opposition in contradictory statements, which I 
consider to be lies. And yet the judge had 90 days to write the 
decision. This is the irony of life. On the 89th day, the judge 
had a brain aneurysm. He did survive that. But out of it came 
what they said was a 30-day blank spot in his memory. Oh, how 
nice it would have been if he could have gone back and reviewed 
the videotape of the hearing before the court. Otherwise, we 
ended up going to the State Supreme Court, and it was a saga 
that lasted for 8 years. We could have cut that by about 2 or 3 
years if the judge, who I think had his faculties about him, 
had been able to review the tape rather than review his notes. 
That is just my personal anecdote on this. But I also think of 
the benefits that come from an educational standpoint. We are 
in a position where you look at our law schools. And I 
understand Justice Scalia will write his dissenting opinions so 
that they are interesting and law students will read them and 
try to learn what goes on in the courtroom. But to be able to 
study our courts, to be able to go back and review Bush v. 
Gore, or the ACA litigation that took place, or any of the huge 
landmark cases that take place before our Supreme Courts or 
those that are litigated before our circuit courts, would be a 
tremendous boon to all of our law schools, all of our students, 
and it would improve our educational process in this country.
    Thank you for your attention, and I yield back the balance 
of my time.
    [The prepared statement of Mr. King follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                __________
    Mr. Marino. Thank you, Congressman King.
    The Chair now recognizes Congresswoman Lofgren.

  TESTIMONY OF THE HONORABLE ZOE LOFGREN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Lofgren. Thank you, Mr. Chairman and Ranking Member, 
for holding this hearing. I think the legislation is important, 
and I am happy to be a cosponsor of the Sunshine in the 
Courtroom Act, not only in this Congress but previous versions 
in previous Congresses. Over 100 years ago, Louis Brandeis 
wrote that ``Sunlight is said to be the best of 
disinfectants.'' These now famous words reflect a belief that 
openness and transparency are key components of a functioning 
democracy. This is a Nation founded on the concept of 
government accountability. And passage of this bill would 
ensure that our judicial system is better able to uphold that 
ideal. The Sunshine in the Courtroom Act would allow judges to 
open their courtrooms to cameras, granting the public greater 
insight into the judicial process and building confidence in 
our legal system. As the Supreme Court found in 1948 in In re 
Oliver, the knowledge that every criminal trial is subject to 
contemporaneous review in the forum of public opinion is an 
effective restraint on possible abuse of judicial power. Now, 
as many of you know, the pilot projects have been going on 
around the country. And one of the pilots is in the Ninth 
Circuit and in the Northern District of California, which 
includes my congressional district. The pilot has been extended 
for a year. But in talking to the judges in the Northern 
District, there is wide acceptance of the pilot. Most seem to 
see no reason why modern technology should not be part of the 
judicial system. Some of the feedback I have gotten from judges 
is that although our bill allows the establishing of rules by 
the Judicial Conference, judges feel very strongly that the--it 
is essential that the identity of jurors continue to remain 
obscured. They are volunteers, and they should not be subject 
to being part of the televised proceedings. Another interesting 
issue raised to me by judges was that, under the pilot, all the 
parties need to agree, and consequently, there haven't been 
very many actual televised proceedings. And some of the judges 
wonder whether we shouldn't revisit that and examine that 
element of it. This is a big deal. I took seriously the 
comments made by the Ranking Member, Mr. Conyers. In terms of 
playing to the cameras, one of the things that judges told me 
is that if there is a high-profile case, that happens without 
cameras being in the courtroom.
    And, in terms of playing to the camera, you know, one judge 
said, pretty soon you forget the cameras are even there. And 
lawyers are focused on winning their case. Therefore, they have 
got to appeal to the jury or to the judge, not to the camera. 
And it was not a concern that that was really a disruptive 
measure.
    Still, it is something that we all should discuss. In terms 
of personal disclosure of information, that objection to me I 
find difficult to understand because our courtrooms are open. 
And if you testify to a matter it is a matter of public record. 
It is not private. So I look forward to hearing further from 
the Judicial Conference on that point.
    Again, I want to thank the Chair and Ranking Member for 
holding this hearing. I think it is an important issue. And if 
we can become familiar with the issues that the courts have 
raised and address them successfully, I think the country will 
be a better place. One of the judges I talked to in the 
Northern District said, you know, the real thing that all of us 
want to see is the Supreme Court being televised because of the 
important role that they play. And I am hopeful that this 
hearing and other discussions will ultimately allow that to 
happen. It would be a tremendous service to our democracy.
    And with that, I yield back the balance of my time.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
  Congress from the State of California, and Member, Subcommittee on 
            Courts, Intellectual Property, and the Internet
    I want to thank the Chair and the Ranking Member for holding a 
hearing on this important legislation. I am an original cosponsor of 
the Sunshine in the Courtroom Act, and have been pleased to cosponsor 
previous versions of this bill in past Congresses.
    Over 100 years ago, Louis Brandeis wrote that ``[s]unlight is said 
to be the best of disinfectants.'' These now-famous words reflect the 
belief that openness and transparency are key components of a 
functioning democracy. This is a nation founded on the concept of 
government accountability, and passage of this bill would ensure that 
our judicial system is aiming to uphold these ideals.
    The Sunshine in the Courtroom Act would allow judges to open their 
courtrooms to cameras, granting the public greater insight into the 
judicial process and building confidence in our legal system. As the 
Supreme Court found in 1948 (In re Oliver), ``The knowledge that every 
criminal trial is subject to contemporaneous review in the forum of 
public opinion is an effective restraint on possible abuse of judicial 
power.''
    As I'm sure many are aware, in addition to the Ninth Circuit's use 
of video streaming, there are currently fourteen federal trial courts 
participating in a pilot program to evaluate the effect of cameras on 
courtrooms. The Northern District of California, which includes my 
Congressional district, is one of the participating courts as selected 
by the Judicial Conference. The pilot, initially slated to end this 
summer, has been extended for an additional year. When it concludes 
next July, the federal judiciary will be facing questions about whether 
or not the use of cameras in courtrooms should be expanded. Trials have 
always been considered public, and I see no reason why, with modern 
technology, the walls of the courtroom should be the limits of this 
privilege.
    This bill largely leaves the establishment of rules governing the 
use of cameras to the Judicial Conference, but I did want to raise a 
couple of points that I think are worth considering after hearing from 
some of the local judges involved in the pilot program. First, with 
regard to the pilot program rules, not only do individual judges need 
to approve the recording of proceedings, but all parties must consent. 
As a result, very few trials have been recorded in Northern California. 
Whether or not to require or allow all parties to consent may be worth 
examining further as we consider expanding the usage of cameras on a 
national level. I would also note that both the pilot program and the 
bill prohibit the media coverage of jurors. This is important, and some 
of our local judges have emphasized that this continue to be stressed. 
Judges that I've spoken with do support the use of cameras in the 
courtroom both as an educational tool and as a means for increasing 
transparency. I hope that the experiences and lessons learned from this 
pilot program will be used to enact meaningful reforms, including 
expanded access to our judicial system.
    Again, I want to thank the Chair and the Ranking Member for 
organizing this hearing today and for allowing me to testify in support 
of this legislation. I look forward to hearing from my colleagues as 
well as the other witnesses, and I hope that we can find a path forward 
to bring our judiciary into the 21st century, using modern technology 
to increase access, accountability, and understanding.
                               __________

    Mr. Marino. Thank you, Congresswoman Lofgren.
    Thank both of you for being here today. I appreciate it.
    We will now seat our second panel. And before you get 
comfortable, I am going to ask you to stand anyhow to be sworn 
in. I will begin by swearing in our second panel of witnesses. 
Before introducing them, if you would please raise your right 
hand.
    Do you swear that the testimony that you are about to give 
is the truth, the whole truth, and nothing but the truth, so 
help you God?
    Let the record reflect that the witnesses answered in the 
affirmative. And you may be seated. Each of the witnesses' 
written statements will be entered into the record in its 
entirety. I ask that each witness summarize his or her 
testimony in 5 minutes or less. To help you stay within that 
time, there is a timing light on your table. When the light 
switches from green to yellow, you will have 1 minute to 
conclude your testimony. When the light turns red, it signals 
that the witness' 5 minutes have expired.
    Our first witness of the second panel is the Honorable 
Julie A. Robinson, United States District Judge for the 
District of Kansas. Judge Robinson was appointed in 2001 by 
President George W. Bush. She is here today on behalf of the 
Judicial Conference of the United States. Prior to her position 
on the Federal bench in Kansas City, she served as a judge on 
the U.S. Bankruptcy Court for the District of Kansas for 8 
years, and assistant United States attorney for 10 years--near 
and dear to my heart--and a law clerk for U.S. Bankruptcy Judge 
Benjamin Franklin for 2 years. Judge Robinson earned both her 
J.D. and B.A. from the University of Kansas.
    Welcome, Judge.
    Our second witness on the second panel is Mr. Mickey 
Osterreicher. Am I still doing well there, sir?
    Mr. Osterreicher. Yes.
    Mr. Marino. General counsel of the National Press 
Photographers Association. In his position, Mr. Osterreicher 
has been actively involved on issues, such as cameras in the 
courtroom, the Federal shield proposal, and media access. In 
addition, he is an award-winning photojournalist, with almost 
40 years of experience in print and broadcast. He also served 
as an adjunct professor, teaching courses in media and the law 
at the University of Buffalo Law School.
    Mr. Osterreicher earned his J.D. from the University of 
Buffalo Law School, and his B.S. from State University of New 
York at Buffalo.
    Welcome to both of you. And, Judge, we will start with your 
opening statement.
    Judge Robinson. Thank you, Chairman Marino.
    Mr. Marino. Would you please hit the button there so we can 
hear you a little better?

  TESTIMONY OF THE HONORABLE JULIE A. ROBINSON, JUDGE, UNITED 
STATES DISTRICT COURT FOR THE DISTRICT OF KANSAS, ON BEHALF OF 
          THE JUDICIAL CONFERENCE OF THE UNITED STATES

    Judge Robinson. Thank you, Chairman Marino and Ranking 
Member Deutch, and Members of the Subcommittee as well as the 
full Committee. I am Julie Robinson. I am a United States 
District Judge for the District of Kansas. And I appreciate 
Chairman Goodlatte's invitation to appear today to discuss the 
views of the Judicial Conference of the United States regarding 
the issue of cameras in the courtroom and, specifically, H.R. 
917, the ``Sunshine in the Courtroom Act of 2013.'' With your 
consent, I will submit a written statement into the record, and 
I will briefly summarize that statement this morning.
    I previously served as the chair of the Court 
Administration and Case Management Committee of the Judicial 
Conference of the United States. And I am familiar with the 
conference position regarding cameras in the courtroom. Before 
I discuss the concerns of the Federal judiciary, I must 
emphasize, as did Judge Tunheim in his testimony before the 
House Judiciary Committee in September 2007, that the Judicial 
Conference does not speak for the Supreme Court. Therefore, I 
am unable to address the provisions of the bill that would 
authorize the broadcasting of Supreme Court proceedings. The 
legislation before us is designated as a bill to provide for 
the media coverage of Federal court proceedings. For reasons 
that are explained in more detail in my written statement, the 
Judicial Conference opposes this legislation, primarily because 
it allows the use of cameras in Federal trial courts, in the 
district courts. If enacted, this legislation will have the 
potential to impair substantially the fundamental right of 
citizens to a fair trial, while undermining court security and 
the safety of jurors, witnesses, and other trial participants, 
including judges.
    I would like to emphasize four points this morning 
regarding our concerns at the trial level. First, the 
intimidating effect of cameras on litigants, witnesses, and 
jurors can have a profoundly negative impact on the trial 
process. Moreover, televising the trial makes certain court 
orders, for example an order sequestering witnesses, more 
difficult to enforce, and could lead to tainted testimony from 
witnesses. Secondly, permitting camera coverage could become a 
potent negotiating tactic in pretrial settlement negotiations. 
Third, allowing cameras in Federal courts would create security 
concerns, and undermine the safety of jurors, witnesses, and 
other trial participants, and heighten the level and potential 
of threats to judges. And fourth, cameras can create privacy 
concerns for countless numbers of persons, many of whom are not 
even parties to the case, but about whom very personal 
information may be revealed.
    With regard to the issue of cameras in the Federal Courts 
of Appeal, the conference opposes the bill's provisions 
permitting each appellate court panel to decide whether to 
allow cameras rather than allowing that decision to be made by 
each Court of Appeals as a whole, which is the existing 
conference policy. The conference did not take these positions 
because it is against increased publicity for the Federal 
courts. In many aspects, the Federal judiciary is at the 
forefront of electronic innovation and transparency. Nearly 
every filing, every trial, every appellate argument, decision, 
and opinion is available and open to the public. Over the past 
decade, the Judicial Conference has dramatically expanded that 
openness by making its entire filing system electronically 
available to the public through the Internet. Furthermore, in 
September of 2010 the Judicial Conference of the United States 
authorized a pilot project to evaluate the effect of cameras in 
district court courtrooms, also the effect of video recordings 
of these proceedings, and the publication of such video 
recordings. The results of the pilot program, which ends in 
July 2015, will help the judiciary review and evaluate our 
concerns with the use of cameras in the district courts.
    In conclusion, Mr. Chairman, this is not a debate about 
whether judges have personal concerns regarding camera 
coverage. It is not a debate about whether the Federal courts 
are afraid of public scrutiny. It is not a debate about 
increasing the educational opportunities for the public to 
learn about the Federal courts or the litigation process. In 
fact, open hearings are a hallmark of the Federal judiciary.
    Rather, this is a question about how your constituents, 
individual Americans, whether they are plaintiffs, defendants, 
witnesses, jurors, or other participants in court proceedings, 
are treated by the Federal judicial process. It is the 
fundamental duty of the Federal judiciary to ensure that every 
citizen receives his or her constitutionally guaranteed right 
to a fair trial. And for the reasons discussed in my statement, 
the Judicial Conference believes that the use of cameras in the 
trial courtroom would seriously jeopardize that right, and, 
therefore, we oppose this legislation. I would ask that my 
written statement be offered and entered into the record. And I 
am happy to answer any questions you may have. And thank you 
for the opportunity.
    Mr. Marino. Thank you, Judge. Your full statement will be 
entered into the record.
    [The prepared statement of Judge Robinson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    
                    __________
    Mr. Marino. And the Chair now recognizes Attorney 
Osterreicher.

TESTIMONY OF MICKEY H. OSTERREICHER, GENERAL COUNSEL, NATIONAL 
                PRESS PHOTOGRAPHERS ASSOCIATION

    Mr. Osterreicher. Chairman Goodlatte, Chairman Marino, 
Ranking Member Deutch, and Members of the Subcommittee, good 
morning, and thank you for the opportunity to appear before you 
to support H.R. 917, the ``Sunshine in the Courtroom Act of 
2013.'' My name is Mickey Osterreicher. I am of counsel to the 
law firm of Hiscock & Barclay in its media and First Amendment 
law practice in Buffalo, New York, and appear here today in my 
capacity as general counsel for the National Press 
Photographers Association, an organization which was founded in 
1946 and of which I have been a member since 1973.
    NPPA is the voice of visual journalists, with approximately 
7,000 members, including video and still photographers, 
editors, and students. During my 40-year career as a 
photojournalist in both print and broadcast, I have covered 
hundreds of court cases, from the Attica trials to the murder 
trial of O.J. Simpson. I was actively involved in the 10-year 
experiment with electronic coverage of courtroom proceedings 
from 1987 to 1997 in New York. And by ``electronic,'' I mean 
audiovisual recording, as well as digital still images. We 
support H.R. 917 because there is a strong societal interest in 
public access to the courts. As part of that openness, almost 
every State allows electronic coverage of criminal, civil, and 
appellate proceedings.
    Unfortunately, that is not the case at the Federal level. 
In 1991, the Judicial Conference of the United States commenced 
a 3-year pilot program permitting the broadcasting, televising, 
electronic recording, or photographing of courtroom proceedings 
by the media. At the conclusion of that program and despite 
favorable reports, the conference declined to approve the 
continuation of such coverage, and the program ended in 1994. 
In 2010, the Judicial Conference authorized a second pilot 
project. This time, it would be court personnel and not the 
media operating the equipment. The guidelines specifically 
state the media or its representatives will not be permitted to 
create recordings of courtroom proceedings.
    In 2014, electronic media coverage is the unblinking eye of 
the public, with its unrivaled capacity to convey information 
instantly and to the widest audience. As Justice Brandeis noted 
in 1932, to stay experimentation in things social and economic 
is a grave responsibility. Denial of the right to experiment 
may be fraught with serious consequences to the Nation. But in 
the exercise of this high power, we must be ever on our guard, 
lest we erect our prejudices into legal principles. The Federal 
judiciary must be mindful of its high power not to erect its 
own prejudices into judicial rules. Society can ill afford to 
let the arbitrary and speculative objections of jurists 
antagonistic to the electronic press substantially undermine a 
fundamental constitutional right by lens capping the very tools 
of its profession and eviscerating the very means by which most 
Americans receive their news. The benefits of allowing such 
coverage are numerous and significant. It brings transparency 
to the Federal judicial system, provides increased 
accountability from litigants, judges, and the press, and 
educates citizens about the judicial process. Electronic 
coverage allows the public to ensure that proceedings are 
conducted fairly, and by extension, that government systems are 
working properly. In 1965, Justice Harlan predicted that the 
day may come when television will have become so commonplace an 
affair in the daily life of the average person as to dissipate 
all reasonable likelihood that its use in courtrooms may 
disparage the judicial process. That day has long since passed.
    Justice Stewart was also on point when he wrote, ``The 
suggestion that there are limits upon the public's right to 
know what goes on in the courts causes me deep concern.'' ``The 
idea of imposing upon any medium of communications the burden 
of justifying its presence is contrary to where I always 
thought the presumption must lie in the area of First Amendment 
freedoms.'' One would only hope that, by 2015, after what will 
have been a 4-year experiment, the Federal judiciary will 
finally acknowledge that electronic coverage of our courts, and 
the fair administration of justice, are not mutually exclusive. 
We look forward to working with the Subcommittee and the full 
Judiciary Committee as you move forward with H.R. 917 and other 
similar legislation. Thank you for the opportunity to testify. 
I look forward to answering your questions, and request that my 
full statement be entered into the record.
    Mr. Marino. Thank you, sir. And your full statement will be 
entered into the record without objection.
    [The prepared statement of Mr. Osterreicher follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                        __________
    Mr. Marino. As is my custom, I wait and ask questions last, 
because I am here and other Congressmen and women need to get 
to other areas. So I am going to defer to my good friend from 
Ohio, Congressman Chabot, who has been a proponent of this 
legislation for years and years.
    Congressman?
    Mr. Chabot. Thank you very much, Mr. Chairman. And maybe 
just a few thoughts and a little background. This is a topic, 
as the Chairman mentioned, that I have been interested in for a 
long time, at least 30 years. I practiced law for 16 years 
before coming to Congress. And during part of that time I was 
practicing law, I was first elected to Cincinnati City Council 
about 30 years ago now and served there for about 5 years. And 
one of the things that I did when I was there was to have 
council meetings televised. I don't know how many people 
actually watched it. It can be a bit boring at times. But, 
nonetheless, the public had access.
    And then moved over to the Hamilton County Commission, 
where I served for about 5 years, did the same thing there. 
When I came to Congress, C-SPAN already existed. Congress 
itself was already on television, despite a lot of the same 
types of concerns that there are relative to courtrooms, that 
people would play to the cameras. And some Members of Congress 
do. But the fact is that we are public folks; that the public 
pays for the courtrooms, just as it pays for our congressional 
chambers. And I think they ought to have access to it. And 
access nowadays, let's face it, people really--it is not 
practical to think that you can just leave your job or leave 
your family and go down and see what is happening in the local 
courtroom. The access is by television should the public choose 
to tune in. And but they should have that opportunity. Again, 
they are paying for it.
    But, in any event, when I introduced the legislation in the 
House about 20 years ago, my colleague, the chief cosponsor, 
was a former Member of the Committee, Rep. Chuck Schumer. And 
he felt very strongly about it and gave innumerable excellent 
speeches. I disagreed with him on a few other things, but on 
this particular topic, we were in agreement. When he left, I 
think Rep. Bill Delahunt took up on the Democratic side and did 
a wonderful job over the years. But we have been working on 
this for a lot of years now. And then I lost my seat back in 
2008 and then won it back in 2010. And I want to commend Rep. 
Steve King for taking it up then. He has done a great job. And 
I want to also thank Rep. Zoe Lofgren for her leadership on 
this issue. But the thing that I keep hearing, this business 
about potentially impairing the right to a fair trial that the 
Judicial Conference talks about, I could understand that point 
of view if we didn't have years and years of experience on 
this, both when the court had its own pilot project back from 
1991 to 1994, in which there essentially weren't any 
significant issues during that 3-year period of time, and then 
we have the States, all of whom at this point--we used to be 
able to say, well, they all except for this one or this one--
well, now they all have it, and we have had 20 years of 
experience, 20-plus years of experience, with very few 
problems. And whatever problems there are I think have been 
dealt with.
    Our colleague, Mr. Nadler, as the Ranking Member Mr. 
Conyers mentioned, has been involved in this and supported it. 
And he had a good suggestion. That was to obscure the faces of 
witnesses in sensitive cases. And we are leaving the oversight 
of this and the rules up to the judges themselves. So I just 
still fail to see what the opposition is to this, although I 
know it is still there, and we haven't been able to accomplish 
this yet.
    But I think, particularly at the Supreme Court level, as 
Mr. King mentioned, the types of cases that are heard over 
there, whether it is Bush-Gore, whether it is the Affordable 
Care Act or Obamacare, whatever your preferred terminology is, 
or one of the pieces, one of my things I am proudest of that I 
was the principal sponsor, the ban on partial birth abortion, 
which we fought for about 8 years before it went all the way to 
the U.S. Supreme Court, and on a 5-4 vote prevailed. And I 
remember sitting on that side, because we were in the minority 
then, Republicans, and hearing that the case had been ruled in 
our favor, which I was really happy about, but we couldn't see 
the decision.
    So those were some of the frustrations. So I have said a 
lot. I don't have a lot of time. Either one of you want to 
respond, especially to the potentially impairment of a fair 
trial? We have got such a long experience. Shouldn't that be 
sufficient to show that that shouldn't really be that much of a 
concern? Your Honor?
    Judge Robinson. What we know is that the State courts have 
had cameras in the courtroom, but there is not a uniform 
approach. Some of them place limits on criminal cases. Some of 
them treat civil versus criminal cases differently. Some of 
them have consent requirements. Some of them do not. The 
Federal judiciary is going to need a uniform national approach. 
That is how we operate. The Judicial Conference makes policy 
for the trial courts. And the trial courts asked for the 
Judicial Conference's guidance and education and policy. And so 
we are looking at a uniform national approach. We know that the 
State courts don't have a singular model that suggests that 
this is the way to do it. Certainly studying their experiences 
is important. But equally important is studying the experience 
of Federal trial judges and having the benefit of all of those 
experiences in formulating a policy.
    In terms of the denial of fair trial or the impairment of 
the fair trial, what I want to I guess stress to you is that 
the most serious of concerns is not that it is going to change 
the behavior of lawyers, or even change the behavior of other 
participants in the trial process. The greatest threat I think 
to the right to a fair trial is that in a courtroom--and 
Representative Conyers spoke to this--it is a search for the 
truth. What happens is rigorous examination of witnesses, both 
direct and cross-examination. We don't want a situation where 
the witness' testimony is all affected by the fact that not 
only are people that are in the courtroom going to hear it but 
now hundreds of thousands, if not millions of people, are going 
to hear it, on television or on the Internet. Perhaps their 
boss or their minister or their next-door neighbor, who would 
otherwise not hear that testimony. In every case, there are 
situations where personal information becomes a part of the 
record. And as you have all talked about, the fact that we have 
open trials already, anyone can find that, all of our pleadings 
are open to the public through the Internet, as are trial 
transcripts.
    But imagine, if you will, in a civil trial, it is an 
employment case, one of the claims is emotional distress. I 
think, Mr. Chabot, you will remember this from being a lawyer, 
but on cross-examination, someone that has made that type of 
claim is going to be examined extensively about everything 
about their personality, their mental health issues, et cetera. 
In a personal injury case, a plaintiff who has made, for 
example, a claim of loss of consortium is now going to be 
cross-examined, if not examined as well, about their sexual 
practices with their spouse or partner. In a criminal case, a 
confidential informant is going to be rigorously cross-examined 
in ways that are going to identify who that person is, even if 
their voice and even if their face is obscured. I say all of 
that to say that we have legitimate and serious concerns about 
the impediment to a fair trial.
    And this is what we need to study. This is why we have the 
pilot. And these are the many questions that we are looking at 
and that we hope will be answered for us in terms of guidance, 
best practices, whether it is possible for a judge to use their 
discretion in a way in a given type of case but yet not impede 
or impair someone's right to a fair trial.
    Mr. Marino. Thank you, Judge.
    The gentleman's time has expired.
    But, Attorney Osterreicher, would you briefly like to 
respond?
    Mr. Osterreicher. I would hope that we wouldn't shoot the 
messenger. There are no less than four cameras in this 
courtroom right now. I don't think any of us are paying any 
attention to them. We are talking to you. You are talking to 
us. That is what happens in a courtroom. That is what my 
experience has been throughout all the cases that I have 
covered.
    In New York, during the 10-year experiment, I think there 
is a telling statistic. Not one of those cases was ever 
appealed on the grounds that somebody did not receive a fair 
trial because their trial was televised. I think that speaks 
volumes.
    In terms of what other information we are going to obtain 
from this new experiment, you know, I look back from '91 to 
'94. The FJC report talks about their confidence in--they went 
through the same empirical data, the same anecdotal data.
    They, along with the Case Management Committee, both 
recommended it. And, yet, at the end of the day, even with a 
supplemental report supporting the continuation of cameras in 
the courtroom and electronic coverage, the judicial committee 
decided to not go forward with it.
    So I am not really sure, you know, how much more data we 
need to convince people. I know that the Honorable Judge 
Robinson put some statistics in her written report. If you will 
look at them, I believe that there are 17 points that were 
addressed. And, yet, only three of those were over a 50 percent 
concern by the people filling out whatever type of 
questionnaire there was.
    So I think, unfortunately, what we see is that it could, it 
might, it is possible. I think this is all speculative. But the 
overwhelming amount of evidence shows that it just hasn't 
happened in the experience of the courts throughout the States 
and even during the experimental time that they had.
    Mr. Marino. All right. Thank you, sir.
    I am just going to take a moment here to enter something 
into the record.
    Without objection, I request permission to submit for the 
hearing record materials from CSPAN, the Radio and Television 
News Directors Association, and Ms. Maureen Mahoney of Latham & 
Watkins. These materials have been circulated to all the 
Members of the Subcommittee. Hearing no objection, I will enter 
these into the record.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    

                  __________
                               
                               
                               


                    __________
    Mr. Marino. All right. The Chair now recognizes the 
distinguished gentleman from Florida, Congressman Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    And thanks to the witnesses for being here.
    I wanted just to follow up on what you both were talking 
about, which is the pilot programs, the need for additional 
investigation into whether this might work over the long-term 
and, Judge Robinson, ask you to look at some of the cases, the 
most highly publicized cases, that were televised, the O.J. 
Trial, William Kennedy Smith, Ted Bundy, Florida--in Florida, 
in the Florida Supreme Court, where cameras are permitted, Bush 
v. Gore.
    In those cases, certainly, the three trials, was there 
evidence of--of the concerns that you raised that would 
undermine a fair trial, the intimidating effect of cameras, 
threats to judges, privacy concerns for nonparties?
    I mean, we have a long history at the state level of cases 
that have been tried in public and on television. Do we--
instead of simply waiting to see what we learn from the pilot, 
from our history, have your concerns been addressed in any of 
these cases or to what extent did we see those concerns about 
undermining a fair trial really come into play?
    Judge Robinson. Well, I have to tell you the high-profile 
cases that have been televised that you mention, I didn't watch 
any of them gavel to gavel. But my perception, I think, and the 
perception of many were those very concerns in those cases. But 
I think what is far more important is to survey the people that 
were involved in a particular case, the lawyers, the witnesses.
    I mean, the things that our pilot is going to do--their 
perceptions, I think, are much more compelling and persuasive 
than the perceptions of somebody who is watching it on TV who 
doesn't know all the facts, who doesn't know, perhaps, what 
that witness testified to in a deposition and whether they are 
shading their testimony now when they are in front of the 
television cameras.
    Mr. Deutch. Right. We may not--viewers may not know that. 
But the parties involved that--on whose behalf you are 
speaking--the concerns of the parties involved, certainly, we 
would have--these are issues that would have come up time and 
time again or would come up time and time again, wouldn't they, 
as we televise trials all over the country, many of them high 
profile?
    Judge Robinson. All I can tell you, sir, is that I think it 
is important to survey people. And I am not aware that, in the 
state courts or in those cases that you mention specifically, 
that those participants were surveyed, that their views were 
called upon.
    We think it is important that the views of the participants 
are a part of what we consider. Once the trial is over, you 
know, they move on unless someone asks them--you know, those 
concerns may never be raised. We want the concerns, if any, 
raised in the context of the survey. And so that is why we are 
doing the pilot in the way we are doing it.
    Mr. Deutch. And I know, Judge Robinson, that you are not--
you are not taking a position on the Supreme Court. Is that 
correct?
    Judge Robinson. The Judicial Conference----
    Mr. Deutch. Right.
    Judge Robinson [continuing]. Does not take a position.
    Mr. Deutch. Right.
    So----
    Judge Robinson. It does not speak for the Supreme Court.
    Mr. Deutch. But it seems--and, Mr. Osterreicher, I will ask 
you this question. It seems that, since--Judge Robinson, as you 
said, the real concern isn't judges playing to the cameras.
    It is all of these other concerns, that at the Supreme 
Court where--simply appearing before the Supreme Court is 
intimidating in itself, and these other concerns don't really 
seem to apply at all.
    So, Mr. Osterreicher, what is--what is the argument? 
Justice Kagan said that she worries about people playing to the 
cameras. You have been to many Supreme Court oral arguments. 
For anyone who has been, is that a--is that a valid concern?
    Mr. Osterreicher. No. Absolutely not. When those red and 
green lights come on, the only thing you care about is 
persuading the nine Justices that are sitting up there as to 
your position. I really think that it really does a disservice 
to the people, to the lawyers, to the judges, to really say 
that people become aware and play to the cameras.
    I mean, I sat in the courtroom during the O.J. Simpson 
trial. The lawyers there were going to do whatever they were 
going to do, regardless of whether there were cameras or not. 
And, as a matter of fact--and I use this as a comparison--I 
believe that the public missed a wonderful opportunity to see 
Judge Matsch, who oversaw the Oklahoma City bombing trial.
    There were cameras in the courtroom there. I mean, most 
people don't think about it. But they were closed-circuit 
cameras that allowed the broadcast of the proceedings that were 
occurring in Denver to be seen by the people in a courtroom in 
Oklahoma City.
    Again, had that been allowed to happen, we might have seen 
what a well-conducted trial looked like compared to what I will 
admit was a circus during the O.J. Trial. But that had nothing 
to do with the fact that there were cameras in the courtroom.
    Mr. Deutch. And at the Supreme Court where--which is a 
courtroom--our courtrooms have always been public places, 
always been open to the public.
    In the Supreme Court, couldn't the argument equally be made 
that, if the concern really is playing to the cameras, that 
with the current system where there are a handful of Supreme 
Court correspondents from the networks, from the major 
publications, who have--who are known to the Justices, isn't it 
just as likely, if that is really the concern, that Justices 
would play to them, knowing that they are going to be the ones 
that describe what happens in the courtroom?
    Mr. Osterreicher. I think, obviously, from my experience 
there, that sometimes the Justices get playful and they really 
don't care whether--that there is cameras there or not cameras 
there. That is what they are doing.
    They are either trying to ask insightful questions or just 
trying to be clever. And, certainly, it is good, if you are 
arguing a case, if you can come back with a good answer.
    I know, in some of the really seminal cases that we have 
actually--NPPA submitted amicus briefs in, I am always in awe 
and disbelief that I am sitting in this courtroom, the highest 
court in the land, where they will decide how the rest of us 
will live and there is only this handful of people.
    You know, I am fortunate that I am admitted to the Bar. So 
I get to wait on a shorter line. But even then they cut people 
off and you have to sit in the overflow room and only get to 
listen to it over a speaker and don't actually get to see 
people. I think that is really important, also, in terms of 
getting to see people.
    When people testify in court and it is only before the 
people in that courtroom, they might testify differently if it 
was on TV. But I would assert that they might testify more 
honestly because, if their neighbors who happen to know 
something about them get to see it, they don't want to not be 
truthful.
    And if we are in search of the truth in a courtroom, then, 
isn't that much better to have everybody? I mean, that is 
really what the founders thought about when they were talking 
about court day, when people could come in and watch.
    Mr. Deutch. Okay. Thank you very much.
    Thanks, Mr. Chairman.
    Mr. Marino. Thank you, Congressman.
    The Chair recognizes the gentleman from Florida, 
Congressman DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Judge, I know there is a difference in terms of 
practitioners practicing in Federal, state court. Part of the 
reason is because of people like you that get through the 
Article III vetting process that tend to be well-qualified and 
good judges.
    And sometimes that is not always the case in various state 
systems. And, obviously, there are States where they do allow 
cameras at the trial level. And you had raised the concern 
about due process and fairness in those cases.
    And so, given that we do have experience with state courts 
having cameras, does the Conference believe that prejudice and 
ill effects abound from the use of cameras there? And, if so, 
what is the basis for that belief?
    Judge Robinson. The Conference has not taken a position and 
really doesn't have a basis to make an evaluation of what is 
going on in the state courts.
    As I said before, I would characterize what the state court 
is doing--what the state courts are doing is experimental in 
the sense that, even though they--some of them have been having 
cameras in the courtroom for a long time, there are so many 
different models.
    We are just concerned, obviously, about ensuring that there 
is due process in the Federal courts. I don't think we are in a 
position to evaluate what is going on in the individual state 
courts.
    Mr. DeSantis. So with respect to this bill, it gives the 
presiding judge the ability to decide whether or not to 
broadcast proceedings.
    So isn't the presiding judge in the best position to 
differentiate between those cases where it may be appropriate 
to record or broadcast and those that may be susceptible to 
undue interference?
    Judge Robinson. I think it is very important that the 
presiding judge have the ultimate discretion because the 
presiding judge knows the case. They know the evidence in the 
case. They can anticipate oftentimes what will happen in the 
trial. On the other hand, there are times that they cannot 
anticipate things that may happen in the trial.
    At the same time, as trial judges, I think we would all 
benefit from a policy that is shaped around the results of our 
study of our own colleagues across the country in terms of what 
happens in certain natures of cases, why--I think the consent 
requirement, for example, will educate and inform us by nature 
of the case what some of the specific concerns are in 
particular cases.
    And I just think our pilot is going to show us what are the 
concerns of lawyers and other participants in the case. We are 
all going to be informed by that. And, ultimately, whatever 
policy the Judicial Conference adopts, I think we will be well 
informed because of the pilot.
    We ask that we be allowed to continue the pilot--it goes 
for another year--and then to look at the results of that pilot 
in formulating policy.
    Mr. DeSantis. Mr. Osterreicher, is there evidence that you 
can point to that shows that the state proceedings where you do 
have cameras have made state officials more accountable and the 
proceedings less prone to error?
    Mr. Osterreicher. I don't know that I could address all 
of--all of those. But at least I would like to just talk a 
little bit, if I could, about what went on in the first 
experiment in Federal court.
    That--as you recall and as I mentioned, those cases were 
covered by the media. In this experiment, it is courtroom 
personnel that are operating the equipment.
    So back between '91 and '93, according to the summary from 
the FJC, there were 257 cases that the media applied to cover 
and 82 percent of those applications were approved.
    Unfortunately, under the new guidelines in this one, not 
only does everybody--all the parties have to consent to the 
coverage, but it is not just the coverage of the trial. It is 
the coverage of each and every proceeding where they can object 
and then there is no coverage.
    I don't know if any of you have had the opportunity to look 
at some of the recordings that are on file on the court's Web 
site, but many of them are done with either split screen or 
quad screen cameras. It is like watching surveil--you know, 
somebody watching a surveillance camera.
    I mean, from my experience being in a courtroom, being in a 
trial, for the most part, it is not Perry Mason. It is like 
watching paint dry. It takes forever for things to happen.
    When you add to the mix a video that, for the most part, 
really could not be broadcast anywhere where things are not 
happening in parts--in quadrants and one person is speaking, I 
just don't think that what we are going to end up with is 
something of value when this pilot is over, and that is what 
concerns me.
    Even after the first experiment when we had the media doing 
it, all of the recommendations were in favor, and we still 
don't have cameras in the court. That is a big concern for us.
    Mr. DeSantis. My time is expired.
    And so I thank the witnesses.
    And I yield back.
    Mr. Marino. Thank you, Congressman.
    The Chair recognizes the distinguished gentleman who is the 
Ranking Member of this Committee, Congressman Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    I have enjoyed the testimony of the witnesses. And I would 
like to begin with Judge Robinson.
    With respect to the privacy expectations of a witness 
under--H.R. 917 authorizes a Federal judge to order the 
obscuring of his or her image and voice during the court 
proceeding.
    In your mind, does this sufficiently protect the privacy 
expectation of a witness?
    Judge Robinson. It is not a sufficient protection in some 
instances, we believe. Again, I don't want to--I want to wait 
for the outcome of the study.
    But I will give you an example that I think most trial 
judges believe is an issue: confidential informants, a common 
type of witness in criminal cases. This is an issue that we are 
working on, we have worked on for 10 years.
    Because when we made our electronic filings open to the 
public through the Internet, plea agreements of confidential 
informants are now public documents, and there has been fallout 
from that.
    Confidential informants have been threatened. There are all 
kinds of--there is all kinds of anecdotal evidence of people 
being injured, perhaps even killed, in the Bureau of Prisons 
when they have been identified as a confidential informant. We 
are trying to figure out a solution to this just in terms of 
the public records that we push out in written form.
    If that confidential informant is testifying in the 
courtroom and their voice is obscured and their face is 
obscured, their identity can still be ascertained because they 
are being cross-examined and examined about who they are, what 
their name is, you know, what their background is, where they 
lived, et cetera. And so that is of particular concern to us.
    These are people that cooperate. The criminal justice 
system relies upon their cooperation; yet, they are at risk. 
They are already at some risk. But with the presence of cameras 
in the courtroom, we think that there is a heightened risk.
    Mr. Conyers. Thank you so much.
    Attorney Osterreicher, addressing the same question to you, 
do you think the obscuring of images and voices are sufficient 
protection for the privacy expectation of a witness?
    Mr. Osterreicher. Well, as has been said before, this is an 
open courtroom. I am not quite sure that there are privacy 
expectations. But, certainly, the presiding judge in that case 
should be the one who is in the best position and has the 
authority to make that decision, whether to obscure their face, 
whether to alter their voice, whether to have them testify 
behind a screen.
    In terms of identification, you know, as has been said, all 
of these records are being made public. They are on the 
Internet. And if somebody wants to do someone harm, then all 
they have to do is go get the transcript and they can find out 
that same information about where they live and what they do 
and what their habits are.
    So I don't think blaming electronic coverage or identifying 
that as the culprit here is the solution.
    Mr. Conyers. Thank you.
    Let me now ask the Judge with the--would your concerns 
about H.R. 917 be mollified if it was limited to appellate 
proceedings only?
    Judge Robinson. Most of our concerns are about what happens 
at the trial court level.
    Mr. Conyers. Yes.
    Judge Robinson. Our only opposition to that part of the 
bill that pertains to the circuit courts of appeal is, by 
virtue of the way that circuit courts govern themselves, it is 
a decentralized governance structure, but they make their own 
rules of practice and case management, you know, as a corporate 
body. That is our only objection.
    The bill, of course, calls for each individual appellate 
panel, a panel of three, typically, on a case-by-case or 
argument-by-argument basis to make the decision. That is 
inconsistent with the way they govern themselves.
    Appellate judges don't have the authority to make 
governance decisions about how oral arguments are going to be 
conducted. They do that as a corporate body. That is the status 
quo, and that is what we would like to continue.
    Mr. Conyers. Well, let me ask Attorney Osterreicher about 
the appellate proceedings issue.
    What is your view, sir?
    Mr. Osterreicher. Well, certainly, I don't think that the 
Sixth or the 14th Amendment rights of any defendant will be 
violated by covering an appellate proceeding, especially one in 
the Supreme Court.
    I mean, there is no testimony. We are just making appellate 
arguments. So it is really even harder for us to understand the 
objections when we are looking at the appellate courts.
    I just want to go back to something for a second.
    You know, during--the Supreme Court has found in capital 
cases this evolving standard of decency, and that was something 
that Justice Marshall articulated.
    And I would suggest here--because most of the courts have 
pretty much found, ``Look, the reporters can come in. You can 
report all you want. You just can't bring the cameras with 
you,'' I would think that there should be this evolving 
standard of openness and what openness in an open courtroom 
trial and a public trial means in 2014.
    And I think that there is a huge difference even between 
the case that was mentioned earlier in Estes in 1965. There 
were 12 cameras in that courtroom during that trial. We are not 
talking about doing something like that here.
    Mr. Conyers. Thank you very much.
    Mr. Marino. Thank you, Congressman.
    The Chair recognizes the gentlelady from Washington, 
Congresswoman DelBene.
    Ms. DelBene. Thank you, Mr. Chair.
    And thanks to both of you for being here with us here 
today. I appreciate it.
    I agree with my colleagues who testified earlier and 
believe that our democracy is much stronger when we leverage 
technology that we have available to increase the public's 
participation in this process.
    We need citizens to be engaged and informed, and part of 
that means making sure that they have access to their 
Government. So allowing cameras in the courtroom is one way to 
help educate the public about the workings of our judiciary.
    At the same time, making sure we implement it in a way that 
is responsible is going to be very important. We need to make 
sure that we don't compromise the safety of victims of violent 
crimes who may be witnesses before the court, as has been 
brought up earlier, or violate due process rights of 
defendants. And striking the right balance is key.
    This bill, I believe, takes a thoughtful approach. And I 
want to commend my colleagues for their work on it. It is 
important that we look at steps where we do increase 
transparency in our system across all three branches of 
Government, and this bill seems to be a step in the right 
direction.
    The Supreme Court provides online audio recordings of oral 
arguments, and it has been releasing audio during the same week 
as arguments only since 2010. Before that, audio from one term 
generally wasn't available until the beginning of the next 
term.
    And so I was wondering, Mr. Osterreicher, what is your view 
on the impact of having these audio recordings available now 
publicly within the same week of the argument? And has there 
been an improvement in public access?
    Mr. Osterreicher. Well, it is certainly a good first step. 
But when we are talking about the age of the Internet, when 
somebody can tweet something and millions of people can see it 
and read it and share it seconds after it has been sent, 
especially in news--when you are talking about something, 
``Well, we will release it that week''--I mean, in the news 
business, a week later is really yesterday's news.
    So for the people that really are interested--and there are 
a surprising amount of them that--whether they are shut-ins or 
just people interested in the way that we conduct ourselves in 
the judiciary, I think at least having simultaneous broadcast 
of the audio might be a good first start.
    I just have a problem, again, with the audio only. Not to 
disparage courtroom artists. They certainly perform a good 
function. But, in 2014, to be relegated to something that is 
more akin to cave drawings than high-definition television just 
seems to be wrong to me.
    Ms. DelBene. Judge Robinson, do you have a view of the 
difference between audio and video when--as you have talked 
earlier.
    Judge Robinson. Well, I can only speak to that in terms of 
what is going on in the trial courts and the circuit courts of 
appeal.
    There are circuit courts of appeal that are posting 
digital--or, rather, audio recordings--digital audio recording 
of their arguments in short measure. And there are some trial 
courts, district and bankruptcy courts, that are doing the 
same.
    Those are courts that are recording their proceedings by 
audio rather than by court reporter, and a number of them are 
posting--whatever the proceeding might be, they are posting 
those to the Internet. Obviously, it improves public access. We 
recognize and really revere the right of the public to--access 
to our open courtrooms.
    The Federal courts have really evolved over the last 20 
years in the right direction in terms of becoming more 
transparent, unlike state courts, who look to us, I think, with 
some reverence because of what we have done with our electronic 
case filings.
    And all of that information is now readily available on the 
Internet. So we are focusing, of course, on proceedings 
themselves, on the small percentage of civil cases that go to 
trial and the small percentage of criminal cases that go to 
trial.
    But in those very many cases that don't, the public right 
now in the Federal system has access to virtually every 
pleading that is filed, obviously, every judicial decision. And 
there is a lot of information and a lot of public education 
that happens in the context of what we are already providing in 
the public sphere.
    Ms. DelBene. Now, we also know that, you know, access to 
actually get into the court--and the Supreme Court is probably 
a good example--very few members of the public can actually get 
in.
    In fact, you can--people pay people to stand in line for 
them right now, and they are paid up to $50 an hour to secure 
spots in a long line for people to get in.
    So that makes it pretty difficult for people to have the 
opportunity to have access to live arguments in the courtroom 
or in the Supreme Court, in particular. So that doesn't seem 
like that is great public access either.
    And, as Mr. Osterreicher pointed out, in many cases, you 
might be sitting in a room watching it on video anyway. So it 
seems like we could do a better job there of improving access 
as well.
    Mr. Osterreicher, do you agree with that?
    Mr. Osterreicher. I would.
    As was mentioned earlier, this morning the Supreme Court 
was hearing arguments in Young v. United Parcel, which was a 
case about the Pregnancy Discrimination Act. I can only imagine 
how many people would have been very interested in hearing 
those arguments this morning while we have been sitting talking 
here.
    Hearing them, watching them, seeing how the proponents 
argue their case, seeing how the justices reacted to those 
arguments, I think that is all a very important part of this 
process and people much better understanding how the judicial 
system works.
    I would almost go so far as to make a comparison. We have 
talked about things in Ferguson. It has been a big discussion. 
I was there dealing with issues of photographers being arrested 
and interfered with.
    But my point here is that, even though grand jury 
proceedings are secret--and they should be--I think as an 
analogy, if those grand jury proceedings had been open and 
people had been able to see and understand what went on in that 
proceeding, we might not have had the same reaction as we had 
after the grand jury handed up a no bill.
    Ms. DelBene. My time has expired. So I yield back, Mr. 
Chair. Thank you.
    Mr. Marino. Thank you, Congresswoman.
    The Chair now recognizes the gentleman from New York, 
Congressman Jeffries.
    Mr. Jeffries. Thank you, Mr. Chairman.
    And I thank the witnesses for their presence here today.
    We have got, of course, three branches of Government, all 
of which are coequal and all of which are incredibly important 
to our democracy.
    But we also have a fourth estate, as sometimes the media 
has been colloquially referred to, which I think also plays a 
very important role in our democracy in projecting that outward 
and making sure that people are informed about the things that 
are occurring certainly with the executive branch and with the 
legislative branch and, hopefully, increasingly as it relates 
to the judicial branch.
    And so, Judge Robinson, I just wanted to ask: Do you think 
that the role that the media plays in the context of helping to 
bring our democracy to life is a point worthy of consideration 
as we determine the best way to proceed?
    Judge Robinson. Absolutely. I am a Jay school graduate. So 
that is an easy answer for me to give.
    But I think, also, it is important to note that our pilot--
this pilot provides for video recordings pushed out on the 
uscourts.gov Web site, available to everyone, not just those 
recordings that the media has decided to record that they think 
are, you know, interesting enough for people to--to their 
subscribers or to the public to listen to.
    We have evolved as a Nation. We have evolved as an 
institution. 20 years ago, when we did that first pilot, it was 
based on media recording. We made a very deliberate decision 
this time to not have recordings based on what the media wanted 
to record, but to make all recordings that, you know, meet the 
requirements of the pilot pushed out to the public.
    I mean, what we have found is that the media now is much 
broader in terms of their, you know, public reporters in the 
sense of people that tweet and people that report and people 
that, you know, create YouTube videos and all of that that 
sometimes actually are--find themselves in the hands of the 
media, and they are used by professional journalists to report 
on the news.
    Mr. Jeffries. Now, we have three branches of Government, as 
I mentioned, all of which, in our founders' wisdom, are 
separate and coequal.
    Does the Judicial Conference take a position on whether it 
is appropriate for Congress, a different branch, to be making 
determinations about the best way for a separate and entirely 
coequal branch to proceed as it relates to cameras in the 
courtroom?
    In other words, is there--is there a separation-of-powers 
concern that should legitimately be considered in the context 
of this debate?
    Judge Robinson. With respect to the trial courts and the 
circuit courts of appeal, we haven't raised a separation-of-
powers argument. But what we have asked is for you to let us 
study and then formulate policy on the basis of our experience, 
as further informed by the study itself.
    We--case management--while it is clear that Congress 
promulgates rules that govern what goes on in Federal 
litigation, at the same time, we also need to be in control of 
our case management practices and how we can best go about 
controlling what happens in the courtroom to ensure that the 
parties receive a fair trial.
    And so that is why--it is not so much a separation-of-
powers argument, but an argument that you give credence to the 
fact that we are studying this, that we are experts, if you 
will, in what happens in the courtroom, and that we want to 
make sure that whatever policy we formulate is shaped and 
informed by our experience and our information.
    Mr. Jeffries. And is there a legitimate distinction that 
can be drawn between criminal proceedings and civil 
proceedings, such that perhaps a greater degree of access is 
allowed on the civil side?
    Because some of the concerns that may be implicated that we 
need to think through in the context of a criminal trial, 
particularly as it relates to confidentiality and privacy and 
the adverse implications of unwanted exposure, don't 
necessarily exist on the civil side.
    Judge Robinson. We have concerns with respect to the effect 
on witnesses and particularly the effect on the substance of 
the witnesses' testimony in civil proceedings.
    But we have more concerns on the criminal side, and that is 
because we have witnesses, as I mentioned before, that are 
confidential informants and cooperators. We have undercover 
officers and agents who routinely testify in criminal cases. We 
are very concerned about their security and safety.
    Mr. Jeffries. And, Mr. Osterreicher, is it legitimate for 
the parties who are participating in the actual trials to have 
an opportunity to object based on their determination that the 
presence of cameras in a courtroom will complicate the ability 
for them to receive a fair trial or should we completely 
dismiss the concerns and simply just allow a judge to be the 
arbiter?
    Mr. Osterreicher. Once again, I think that a trial court 
judge could make that decision. The problems that I see are, if 
everybody objects, we are not going to have very much of a 
pilot study for them to have some evaluations from.
    So, you know, my experience in state court in New York was 
many times, when the media made an application to cover it, you 
could certainly expect out of hand that there would be an 
objection.
    And we would make those arguments to the judge, and the 
judge would decide with a presumption of coverage whether or 
not that objection would overcome that presumption. So I think 
that might be a good way to start.
    I just also wanted to go back to one other point in terms 
of the media deciding which cases to cover. That is true. But 
what is also true, at least in my understanding of this pilot 
program, is that none of the video that is recorded in any of 
these cases gets posted to the Web site until the judge in the 
case has reviewed the video.
    So, in a way, if there is something there that might be 
problematic, that's something that, you know, he could--he or 
she could do as well.
    Mr. Jeffries. Thank you.
    My time has expired.
    Mr. Marino. Thank you, Congressman.
    The Chair recognizes the gentleman from Rhode Island, 
Congressman Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    The bill before us today, the Sunshine in the Courtroom 
Act, promises to provide greater access to the public and to 
the inner workings of our justice system.
    As my colleague, Congressman Lofgren, noted in her 
testimony, trials have always been open to the public and the 
enactment of this legislation would expand upon that promise of 
transparency.
    And it is very hard for me to understand the argument that 
the quality of our system of justice or the fairness of our 
courts is impaired by--or is improved by limiting public 
access.
    And, Judge Robinson, I am going to start with you.
    Because, you know, if you look at the history of the right 
to a public trial, it is, of course, grounded in the Anglo-
Saxon history of the common law in the 17th century, and the 
idea of it was that the public proceedings would operate as a 
check against malevolent prosecution, corrupt or malleable 
judges, or perjurious witnesses, the idea that a public trial 
would aid the fact-finding mission and make--encourage citizens 
to come forward and speak truthfully, whether providing 
inculpatory or exculpatory evidence.
    So your testimony that the single greatest threat to 
underlying media exposure in the courtroom is--to the search 
for the truth seems to turn the Sixth Amendment right to a 
public trial on its head. I mean, the whole idea was it would 
be a check, it would provide assurances that people would be 
truthful because it would be exposed broadly to the public.
    So why do you conclude or why does the Judicial Conference 
believe that that public--the expansion of that public trial 
will undermine the search of the truth rather than advance it 
even more?
    Judge Robinson. That is--that is a critical question that 
we are studying. The right to a public trial is sacrosanct. The 
right to a fair trial is sacrosanct. We are balancing those 
two. To the extent we have to worry--and we don't know 
whether--how much we have to worry. But I think, anecdotally, 
we have all experienced this.
    But to the extent we have to worry that a witness hedges or 
shades the truth, is not forthcoming with information that they 
would otherwise be forthcoming with when they are testifying in 
front of a courtroom with, say, 20 people because they know 
that there may be millions of people that are watching that, 
including people that are of particular importance to them, 
like their boss or their pastor or their next-door neighbor who 
otherwise probably wouldn't go online and get the transcript of 
the trial and go through that effort, we have to worry.
    And I gave some examples earlier in a civil case. I have 
had a case recently that I thought the parties might agree to 
record. They did not. I wasn't surprised because it was a case 
about trade secrets. They come into a public courtroom. They 
are looking around, seeing who is in there, hoping none of 
their competitors are in there. If their competitors are in 
there, they have a right to be in there. But they are going to 
be more concerned if their competitors are out watching it on 
the Internet, something that they won't know.
    And this comes up in a variety of contexts. It comes up in 
terms of are witnesses going to be concerned about hedging or 
shading their testimony when they are being cross-examined 
about a loss of consortium claim or an emotional distress claim 
or, in a criminal case, if they are a confidential informant. I 
mean, there a number of concerns, depending on the type of case 
and depending on the nature of the witness.
    Mr. Cicilline. But, as a general rule, do you agree with 
the proposition that it is more likely that people will testify 
truthfully when it is broadly exposed?
    Because if you don't accept that proposition, then this 
notion underlying the right to a public trial doesn't make any 
sense.
    I mean, the idea is, if you are going to make an assertion 
and the whole world is going to hear it and it is not true, 
then there is someone who might be able to prove it is not 
true. If it is a truthful statement, then you are less 
concerned that the whole world hears.
    So I just think that your argument--or the argument of the 
Judicial Conference really undermines a basic notion of the 
public trial as being a very effective tool.
    And I was a criminal defense and civil rights lawyer, did a 
lot of state and Federal practice. And I think that a public 
trial, the notion of being subjected to cross-examination and 
being done broadly and not in sort of a secret way or way that 
limits public access, actually enhances the truthfulness.
    But I want to go to a second question. You also said in 
your written testimony that the presence of cameras in the 
trial courtroom is likely to heighten the level and potential 
of threats to judges.
    What is the basis for that conclusion? And have you seen 
any evidence in the state court practice that the presence of 
cameras in the courtroom has increased the level or potential 
for threats to judges?
    Judge Robinson. Of course, our study is focused on Federal 
practice in Federal district courts. We haven't studied what 
has happened in state courts. But there are judges who have had 
threats--all of us have had threats, some more serious than 
others.
    The fact that your face----
    Mr. Cicilline. But the question is about the presence of 
cameras as a source of that.
    Judge Robinson. Well, the fact that your face is broadcast 
is a concern, if it is the type of case where you have been--
you know, the--you have received threats. That is a concern.
    There are a number of concerns, and that is one of them. It 
won't happen in every case. It probably won't happen except in 
a small number of cases. But, nonetheless, it is a concern.
    Mr. Cicilline. Mr. Osterreicher, you looked like you were 
about to say something.
    Mr. Osterreicher. Yeah. I can certainly understand it being 
a concern. But is it any more of a concern than--Judge 
Robinson, I have never met you. Last night I went on the 
Internet. I Googled you. I found a picture of you. I said, 
``Oh, I know who to look for.''
    It is not that difficult in this day and age. You don't 
need to have a proceeding of somebody testifying and having 
their face on television to find out what they look like.
    Mr. Cicilline. Thank you.
    My time has expired. I yield back. Thank you, Mr. Chairman.
    Mr. Marino. Thank you, Congressman.
    The Chair recognizes the gentleman from Texas, Congressman 
and former Judge Poe.
    Mr. Poe. I thank the Chair.
    Thank you all for being here.
    A couple of points to begin with, and then I want to get 
your input.
    As the Chair mentioned, I served on the criminal court 
district bench in Texas for 22 years, tried felonies, 
everything from stealing to capital murder. Before that, I 
spent 8 years as the trial prosecutor at the DA's office in 
Houston.
    And when I took the bench a long time ago, the idea of 
cameras in the courtroom was just, you know, nonexistent. And I 
actually allowed cameras in the courtroom very early on in my 
judicial career, and it was based upon the philosophy, the 
belief, the frustration--and I am going to agree with Mr. 
Cicilline from Rhode Island. I know that shocks him that I 
agree with him on this.
    The public--the public--the mystery of the courthouse still 
exists with the public. They pick up the newspaper in the 
morning and they read that this happened in a courtroom 
somewhere. And many times they are frustrated. ``Why in the 
world did that happen in the courtroom?''
    And it is because all they get is a little blip in the 
paper about the trial. They don't have access to the public 
trial. Public trial, I agree, it is public so that the public 
knows what is taking place. We get away from the Star Chamber 
of England when they did things in the back room.
    And the more the public knows, the better they understand 
why the outcome turned out the way it did. So, with that, I 
allowed cameras in the courtroom. We had--we heard all those 
arguments. You know, we protected victims of crime. They 
weren't televised. The media always worked with that. Children 
weren't televised, special cases. The jury wasn't televised. We 
kept it focused on the importance of the trial. We never had a 
problem.
    We heard these arguments about that lawyers will play to 
the--would play to the cameras. They don't play to the cameras. 
They play to the jury, like they have always done throughout 
centuries. They play to the trier of fact, whether it is the 
Court or whether it is the jury. And I always thought that, if 
judges didn't want cameras in the courtroom, why was that? 
Maybe they would be doing things that the public should be 
know--they shouldn't be doing things that they are doing.
    So I have had experience with cameras. It worked out. We 
did a capital murder case of a juvenile, and both sides agreed 
to the trial--filming most of the case. And so I am a big 
supporter of the public knowing about the greatest judicial 
system in the world. It is the American judicial system. It is 
not somebody else's. It is ours.
    And blocking and preventing that access when they have the 
right to sit there and watch it and saying, ``But we put a 
camera and view it on television. You are not allowed to do 
that,'' that does not make any sense to me. So I do believe 
that we ought to allow that in Federal court as well.
    You go over to the Supreme Court and you get a 15-minute 
snippet, if you are a guest, on what is taking place in a very 
important trial with the most important court in the world, 
because the public is allowed to walk in and then they rush 
them out to bring in more people who are wanting to see what 
takes place. Reading the transcript is not the same as watching 
the trial.
    So without elaborating so much on that specific issue, what 
does the--what does the media, those in the business of filming 
courtroom trials, think how that would help or hinder the 
public perception of the judicial system that is taking place? 
Got an opinion on that? Either one of you.
    Mr. Osterreicher. Certainly, I think that the more informed 
the public can be--the fact that--you know, when I first 
started doing this, as you said, I might be at the courtroom 
all day and we are going to run a minute-30 story on the trial.
    That day has also long since passed because now, with the 
Internet, if you work at a television station, they can live-
stream the trial all day long and it doesn't take away from 
their broadcast abilities. So if somebody wants to watch gavel 
to gavel, they get to watch gavel to gavel, if they allow the 
cameras in, and certainly the more informed you can be.
    I mean, I would much rather watch a courtroom proceeding 
without any of the commentary. I would just like to see, as if 
I were sitting there, what is being said, what is being asked, 
what evidence is being introduced.
    Now, I realize I am a lawyer, but I think there are a lot 
of people that have that same interest. And if I can just watch 
for myself--I believe that happened during the civil trial of 
O.J. Simpson. And you just--there were really no commentators. 
You could just turn it on and watch it. It was on every day. 
And I think Court TV did gavel-to-gavel coverage, and you could 
form your own opinions or learn things.
    And I think that is the real benefit of allowing the 
cameras in. And I think, unfortunately, far too often the 
electronic coverage gets confused with the commentators and the 
pundits and the spin and all the other stuff that comes with, 
well, what used to be news and is now infotainment.
    Mr. Poe. I am out of time. I had another question for the 
Judge. But thank you very much. I appreciate it.
    Mr. Marino. If the Judge wants another 30 seconds, fire 
away.
    Mr. Poe. Well, I appreciate the Chairman.
    I was just going to--Judge, I was going to ask your 
personal opinion.
    Do you think, if the public had more visibility of what we 
did in the courtroom, whether it is at the trial bench or 
whether it is at the appellate bench or the Supreme Court--do 
you think maybe they would understand and appreciate the 
judicial system more or not with the--with cameras?
    Judge Robinson. That would be my hope, Mr. Poe. Maybe I 
should call you Judge Poe.
    I think all judges want the public to be better informed 
about our branch of Government and recognize that the public is 
not as well informed as they used to be, perhaps, when we were 
in school many years ago.
    We recognize and embrace the fact that public access to the 
courts is very important. They are public proceedings. We 
understand that, you know, cameras may augment that. At the 
same time, though, we are balancing other interests.
    I appreciate that you have had seasoned experience as a 
trial judge in Texas. And there are a number of judges in the 
pilot itself that came from state court experience.
    We are going to be serving all of the participants in the 
pilot, including judges. Some of us didn't have that experience 
before being on the Federal bench. Others did.
    It will be interesting, I think, to hear from those judges 
that have that prior state court experience as well. But that 
is going to inform how we go about formulating policy forward.
    There are concerns. I think there are legitimate concerns. 
We are balancing the right to fair trial versus the public's 
very important right to access.
    We just ask that you allow us to complete our study and to 
formulate our policy and our procedures and our guidance going 
forward.
    Mr. Poe. All right. Thank you very much.
    Thank you for the additional time, Mr. Chairman.
    Mr. Marino. Thank you, Congressman.
    The Chair now recognizes the gentlelady from Texas, 
Congresswoman Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    And I thank the Ranking Member as well for his leadership 
and the questions of my colleagues, who have expressed 
vigorously our collective commitment to justice and fairness 
and the importance of the judiciary.
    I would offer to say that I think the issues have been 
raised here legitimately, Judge Robinson, that give merit to 
concerns and comments that you have made, along with those of 
Mr. Osterreicher, who has likewise raised this open 
transparency.
    And so I hope that, as we deliberate as a judiciary 
committee, that we will act with judiciousness and take all of 
these issues into consideration.
    I want to ask about the pilot. Give me the ending time of 
the pilot.
    Judge Robinson. It is July 2015. It was originally a 3-year 
pilot. We extended a year and now into a fifth year.
    Ms. Jackson Lee. And so, at that point, you will have a 
collection of data that included cameras in the courtroom of 
varying levels of the judiciary, state, county, Federal or----
    Judge Robinson. No. The pilot is focused only on Federal 
trial courts, the district courts, and the participants are 
Federal district judges.
    So, in July 2015, the recordings will stop and then the 
Federal Judicial Center will be the one compiling the data, 
including the very many surveys of practitioners and lawyers 
and other participants in the process.
    We hope at the Court Administration and Case Management 
Committee's biannual meeting in December of 2015 that report 
will be ready for the consideration of the Committee.
    I am no longer on that Committee. I chaired that Committee 
until September 30 of this year. But I would anticipate that it 
is at that meeting that we--this is a horrible government 
acronym--CACM is what we call the Committee, C-A-C-M--but at 
that meeting that that body will consider that----
    Ms. Jackson Lee. So you have had--excuse me for 
interrupting.
    But you have had cameras in the courtroom now for a number 
of different Federal courts. Do you, by any chance, know how 
many?
    Judge Robinson. There are 14 courts participating in the 
pilot.
    Ms. Jackson Lee. I am going to ask you a series of 
questions.
    Judge Robinson. That is fine.
    Ms. Jackson Lee. So let me just----
    Judge Robinson. There are 14----
    Ms. Jackson Lee. That is all I need, the 14.
    And you do what with the video now?
    Judge Robinson. The video is posted to the uscourts.gov Web 
site.
    Ms. Jackson Lee. So it is--it is able to be viewed?
    Judge Robinson. And they are posted fairly quickly.
    Ms. Jackson Lee. Okay.
    Judge Robinson. The goal is to post them that day or the 
following morning.
    Mr. Osterreicher had talked about the fact that judges 
review the videos before they are posted. That is not the 
practice.
    The judges may review the video if there is a problem. But 
if there is not a problem, the video is posted. And you know 
there is a problem because you are there and contemporaneously 
you can usually determine that there is a problem and you may 
need to go back and ask for some----
    Ms. Jackson Lee. Let me ask some--a series of questions. 
Thank you very much.
    So, in essence, this is a judicial CSPAN somewhat? CSPAN is 
current and present. You don't post it until the next day? I 
just need a yes or no.
    Judge Robinson. Yes.
    Ms. Jackson Lee. Okay.
    Judge Robinson. Correct.
    Ms. Jackson Lee. Mr. Osterreicher, we are getting your name 
correctly? Maybe we should say Mr. Mickey. But we thank you for 
your intolerance--your tolerance. Not intolerance, but your 
tolerance.
    In the bill, I note that there is an effort to protect 
witnesses, for judges to ask the question about witnesses, 
blurring their particular faces.
    Let me ask you this. And I have heard enthusiastic 
expression by my colleague. Being a lawyer and a champion of 
the First Amendment, which is what the intentions are here, 
that wonderful First Amendment and that recognition of the 
importance of speech not being, if you will, unfettered speech, 
which in the courtroom there is speech, and then the whole 
judicial system that gives every party an opportunity to be 
heard, but then, also, for witnesses to be heard as well, what 
comes to mind is the unfortunate case of Mr. Zimmerman and 
Treyvon Martin and the demonizing of a beautiful young lady 
because she happened to be different.
    What is your response to witnesses who may look differently 
and speak differently and people are across the country 
watching and, even though this is just unfettered video, then 
it becomes in the open sphere and that person--that innocent 
person, that beautiful young African-American woman, became 
the--not of her own fault. She was doing her civic duty, and 
the horror of demonizing her was inexcusable. How do you answer 
to the potential of those kinds of things happening?
    Mr. Osterreicher. I certainly believe that that was very 
unfortunate. I have always been a proponent of the fact that 
cameras and electronic coverage should be up to the discretion 
of the trial court judge.
    I don't think there should be a per se ban. I don't think 
there should be a per se ``We are coming in whether you like it 
or not.''
    I mean, a judge needs to conduct his or her courtroom in 
the way he or she sees fit and--and make sure that justice is 
fairly served. So that is really all I am saying here.
    You know, it is unfortunate in this day and age, you know, 
people are often targeted, whether--now on social media. It is 
not just broadcasts anymore that leads to this kind of mob 
mentality that is out there.
    Ms. Jackson Lee. I thank the Chairman for his indulgence.
    I just want to make one sentence. I appreciate the 
testimony of both witnesses. I believe it has been very 
helpful. This is an important legislative initiative. It has 
some protective measures to it.
    Judge Robinson, you have indicated some protective measures 
through the pilot. I would hope that we could see the report of 
the pilot.
    And, Mr. Chairman, I am hoping that we will have the 
opportunity to vigorously look at this and the legislation and 
make an important decision that will be fair to both of the 
witnesses' testimony.
    I yield back.
    Mr. Marino. Thank you, Congresswoman.
    I think it is my turn to ask some questions, and I am 
staying as neutral as possible on this.
    I was a prosecutor at the state and at the Federal level as 
a U.S. attorney, and I tried my own cases. So I know what goes 
on in the Federal courtroom.
    I am going to play a little bit of a devil's advocate here 
with the two of you and get your reactions.
    Do we agree that--and I have tried these cases in Federal 
court--when a minor is involved in a case, that there is no--
nothing divulging who that minor is as far as a TV is 
concerned? There is an agreement there?
    Judge Robinson. We agree. In fact, that is consistent with 
our privacy policy now in terms of written--the trial 
transcript and pleadings, that minors are identified by 
initials, not by name.
    Mr. Osterreicher. I certainly think that is true. And, for 
the most part, in cases where the media does cover these 
trials, if that is what is indicated by the judge, then media 
will follow along with those guidelines.
    Mr. Marino. And I am particularly concerned about a victim, 
because I prosecuted cases concerning sex trafficking of 
minors.
    Mr. Osterreicher. I think, in much the same way as the 
media often does not report the name of a victim in cases, it 
certainly would follow that you wouldn't show their identity.
    Mr. Marino. Do either of you have a distinction whether the 
proceedings concern testimony, demonstrative evidence, or 
appellate oral argument? Do you draw a distinction between the 
two of whether one or the other should or should not be 
televised?
    Judge?
    Judge Robinson. Again, the circuit courts of appeal can 
make the decision as corporate bodies individually whether to 
allow for cameras in their courtroom. There are different 
concerns. But there are many more concerns at the trial court 
level, as I have articulated today.
    Mr. Marino. This is probably rhetorical, but from what I 
have seen, there is no money allocated for this. Who is going 
to pay for it? Taxpayers.
    Mr. Osterreicher. Well, I would argue that if the media 
were allowed to cover these cases, it would be their cost, not 
the courts'.
    Mr. Marino. Who is going to be the, for lack of a better 
term, and I don't mean to be facetious about this, who is going 
to be the director? Does just my local news guy come in and 
take control and film, or is the judge now going to have the 
responsibility of being the director and calling the shots?
    Judge Robinson. Well, the concern that the Judicial 
Conference has, and the reason we structured the pilot the way 
we had, is we want to be in control of the equipment, to make 
sure that jurors or witnesses are not inadvertently recorded. 
If you are talking about a live broadcast, once the toothpaste 
is out of the tube, it is out of the tube. You can't fix 
something like that. But you are right: It takes resources. It 
takes labor. It takes someone monitoring the equipment.
    Mr. Marino. Mr. Osterreicher.
    Mr. Osterreicher. I think there certainly are ways to make 
sure that the jury is not recorded. In the O.J. trial, for 
example, the camera was mounted on the wall above the jurors' 
heads. There was no way for it to look down at all. So there 
was no inadvertent. Certainly as a photojournalist, if I was 
told by the judge, this person doesn't get recorded, that is 
what that means.
    Mr. Marino. Am I correctly assuming that neither one of you 
are--I know certainly, Judge, you are not, but Attorney 
Osterreicher, are you saying that you do not want to have an 
individual come in the courtroom with his or her own camera and 
photograph this?
    Mr. Osterreicher. I certainly think there needs to be rules 
and decorum. I can't imagine, just as in those trials of the 
century during the Lindbergh baby, where you had photographers 
literally running around the courtroom with big Speed Graphics, 
that is not what we are talking about here. So, in this day and 
age, where everybody has got a phone, and everybody has got a 
camera in that phone, I am certainly not suggesting that 
everybody in the courtroom sit there and record it on their 
own.
    Mr. Marino. But I do not hear you saying that you agree 
with what I am purporting here, that the court cameras are the 
only cameras in the courtroom and the judge controls them. Do 
you not agree with that?
    Mr. Osterreicher. I have a problem with that.
    Mr. Marino. Okay. What do we do about--my time is running 
out here--but what do we do about the situation where once 
these digital recordings are released, now what is going to 
happen when the public gets a hold of it? What is going to 
happen when the comedians on late night TV get a hold of it? 
What is going to happen when someone out there who has the 
ability, and it is very easy today--my kids teach me how to do 
it--taking that video and altering it and then putting it out 
on YouTube?
    Judge Robinson. Obviously, we have no control of any of 
that. But to suggest that because that is a problem, the 
public--if there is value in the public having a right to 
record proceedings or having access, I should say, to record 
proceedings, that is one of the risks attendant with that.
    Mr. Osterreicher. I think there is always going to be a 
parade of horribles, and no matter what we do, no matter how 
far we try and think this ahead, there is going to be an issue. 
But I don't think that is a valid one.
    Mr. Marino. But I agree with my friend Judge Poe that we 
have the best legal system in the world. It is a sanctity that 
we have to cherish. And I would hate to see it be ridiculed. 
So, with that, I would thank you very much for your testimony 
today. It has been very helpful to all of us. This concludes 
today's hearing. Thanks to all of our witnesses and those 
attending.
    Without objection, all members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record. This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 <all>
</pre></body></html>
